      Department of Homeland Security




       The State of Washington’s Management
       of Urban Areas Security Initiative Grants
             Awarded During Fiscal Years
                    2007 through 2009




OIG-12-27                                          January 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




 
                               JAN 20 2012 

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Washington’s management of Urban Areas Security
Initiative grants awarded during fiscal years 2007 through 2009. We contracted with the
independent public accounting firm Williams, Adley & Company-DC, LLP to perform
the audit. The contract required that Williams, Adley & Company-DC, LLP perform its
audit according to generally accepted government auditing standards. Williams, Adley &
Company-DC, LLP’s report identifies two reportable conditions where State management
of the grant funds could be improved, resulting in four recommendations addressed to the
Assistant Administrator, Grant Programs Directorate. Williams, Adley & Company-DC,
LLP is responsible for the attached auditor’s report dated November 30, 2011, and the
conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
November 30, 2011

Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Williams, Adley & Company-DC, LLP performed an audit of the State of Washington’s
management of the Department of Homeland Security’s Urban Areas Security Initiative
grants for Fiscal Years 2007 through 2009. The audit was performed in accordance with
our Task Order No. TPD-FIG-BPA-07-0013-0002, dated September 27, 2010. This
report presents audit results and includes recommendations to help improve the State’s
management of the audited Urban Areas Security Initiative grants.

We conducted our audit in accordance with applicable Government Auditing Standards.
The audit was a performance audit as defined by Chapter 1 of the Standards and included
a review and report of program activities with a compliance element. Although this audit
report comments on costs claimed by the State, we did not perform a financial audit, the
purpose of which would be to render an opinion on the State of Washington financial
statements or funds claimed in the Financial Status Reports submitted to the Department
of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please contact me at 202-371-1397.

Sincerely,

Williams, Adley & Company-DC, LLP




Jocelyn Hill
Partner
                                  WILLIAMS, ADLEY & COMPANY-DC, LLP
                        Certified Public Accountants / Management Consultants
   1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                          www.williamsadley.com
 Table of Contents/Abbreviations

Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................. 2


     Urban Area Grants Management Practices Were Generally Effective, 

        But Require Some Improvements .......................................................................... 2

     Urban Area Strategy Needs Improvement ................................................................... 3

     Recommendations ........................................................................................................ 8

     Management Responses and Auditors’ Analysis ......................................................... 8


     Lack of Assessment Process to Measure Improvement ............................................... 9

     Recommendations ...................................................................................................... 10

     Management Responses and Auditors’ Analysis ....................................................... 10


Appendices
     Appendix A: Purpose, Scope, and Methodology ..................................................... 12

     Appendix B: Management Responses to the Draft Report ..................................... 15

     Appendix C: Homeland Security Grant Program Background ............................... 20

     Appendix D: Washington Military Department Emergency Management

                 Division Organization ........................................................................ 21

     Appendix E: Report Distribution ............................................................................ 22


Abbreviations
     DHS                   Department of Homeland Security
     FEMA                  Federal Emergency Management Agency
     FY                    fiscal year
     OIG                   Office of Inspector General
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 Public Law 110-53, Implementing Recommendations of the 9/11
                 Commission Act of 2007, requires the Department of Homeland
                 Security, Office of Inspector General, to audit individual states’
                 management of State Homeland Security Program and Urban
                 Areas Security Initiative grants. This report responds to the
                 reporting requirement for the State of Washington and its Urban
                 Areas Security Initiative grants.

                 The objectives of the audit were to determine if the State of
                 Washington distributed and spent Urban Areas Security Initiative
                 grant funds (1) effectively and efficiently and (2) in compliance
                 with applicable federal laws and regulations. We were to also
                 address the extent to which grant funds enhanced the State of
                 Washington’s ability to prevent, prepare for, protect against, and
                 respond to natural disasters, acts of terrorism, and other man-made
                 disasters. The audit included a review of approximately
                 $32 million in Urban Areas Security Initiative grants awarded to
                 the State of Washington during fiscal years 2007 through 2009.

                 Generally, the State did an effective and efficient job of
                 administering the program requirements, distributing grant funds,
                 and ensuring that all available funds were used. The State formed
                 working groups to establish priorities and spent grant funds in
                 accordance with such priorities and applicable federal laws and
                 regulations.

                 However, we identified two areas for improvement: the Urban
                 Area strategy and the assessment process to measure improvement.
                 Our four recommendations call for the Federal Emergency
                 Management Agency to initiate improvements which, when
                 implemented, should help strengthen program management,
                 performance, and oversight. Written responses to the draft report
                 are incorporated as appropriate and included in their entirety in
                 appendix B.




              The State of Washington’s Management of Urban Areas Security

             Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                         Page 1
Background
                 The Homeland Security Grant Program provides federal funding to
                 help state and local agencies enhance capabilities to prevent,
                 protect against, respond to, and recover from terrorist attacks,
                 major disasters, and other emergencies.

                 The State of Washington (State) received $90.8 million in
                 Homeland Security Grant Program funds, administered by the
                 Federal Emergency Management Agency (FEMA) during fiscal
                 years (FY) 2007, 2008, and 2009. This included $32 million in
                 Urban Areas Security Initiative grants. Appendix A provides
                 details on the purpose, scope, and methodology for this audit.

                 The Governor of the State of Washington designated the
                 Washington Military Department, Emergency Management
                 Division as the State Administrative Agency, the entity responsible
                 for administering the Homeland Security Grant Program. The
                 State Administrative Agency is responsible for managing the grant
                 programs in accordance with established federal guidelines and
                 allocating funds to local, regional, and other county government
                 agencies. The State of Washington designated Seattle, its
                 surrounding counties, and the City of Bellevue as the Urban Area
                 for the state. The Washington Military Department, Emergency
                 Management Division organization is depicted in appendix D.

                 Within the State of Washington, the State Administrative Agency
                 subawarded Urban Areas Security Initiative funds to three counties
                 (King, Pierce, and Snohomish), three state agencies (University of
                 Washington, Washington State Patrol, and Washington
                 Department of Health), one city (Bellevue), and one local agency
                 (Seattle Police Department).

Results of Audit
     Urban Area Grants Management Practices Were Generally
     Effective, But Require Some Improvements
          Overall, the State did an efficient and effective job of administering the
          program requirements, distributing grant funds, and ensuring that all
          available funds were used. The State formed working groups to establish
          priorities and spent grant funds in accordance with such priorities and
          applicable federal laws and regulations.


              The State of Washington’s Management of Urban Areas Security

             Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                         Page 2
     However, as demonstrated by the results contained in this report,
     improvements are needed with respect to the Urban Area strategy and the
     assessment process to measure improvement.

Urban Area Strategy Needs Improvement
     The Seattle Urban Area strategy did not contain adequately defined goals
     and objectives to use in measuring performance. The strategy had not
     been updated since 2005 and was not linked to the grant application. As a
     result, the State did not have a basis for measuring improvements in its
     preparedness and response capabilities.

            Goals and objectives are not measurable and time-limited

            The goals and objectives in the strategy are not measurable and
            time-limited. The strategy says that goals should be achieved
            through the objectives by December 2007; however, there are no
            specific target dates to identify when individual objectives are to
            be achieved. Further, the strategy does not provide an adequate
            basis for measuring progress during fiscal years 2007 through
            2009.

            Department of Homeland Security (DHS) State and Urban Area
            Homeland Security Strategy Guidance on Aligning Strategies with
            the National Preparedness Goal, dated July 22, 2005, states that a
            comprehensive strategy should contain both broad-based, long-
            term goals and corresponding short-term objectives that address
            areas of prevention, protection, response, and recovery
            enhancements within the State or Urban Area. In addition, the
            primary determinants of an overall successful strategy are the
            quality of the goals and performance against those goals. The
            guidance also states that an objective sets a target level of
            performance over time expressed as a tangible, measurable
            objective, against which actual achievement can be compared,
            including a goal expressed as a quantitative standard, value or rate.
            An objective should be:

                 Specific, detailed, and focused — helping to identify what was
                 to be achieved and accomplished;
                 Measurable — quantifiable, providing a standard for
                 comparison, and identifying a specific achievable result;
                 Achievable — the objective is not beyond a state, region,
                 jurisdiction, or locality’s ability;
                 Results-oriented — identifies a specific outcome; and


         The State of Washington’s Management of Urban Areas Security
        Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                    Page 3
         Time-limited — a target date exists to identify when the
         objective will be achieved.

    State Administrative Agencies or Urban Area Working Groups
    should assess the quality of the strategy’s objectives to determine if
    the measures are meaningful in the context of a specific action
    item or preparedness effort, the measurement methodology is
    sound, and the measures can be verified with reliable data. Only if
    the objectives meet these criteria should they be included in the
    strategy.

    The Government Performance Results Act of 1993 section 306
    states that plans shall contain general goals and objectives for the
    major functions and operations of the agency. The plans shall also
    include a description of how goals and objectives are to be
    achieved, including a description of the operational process, skills,
    and technology; and human capital information, and other
    resources required to meet those goals and objectives. All the
    plans and strategies used by the State as well as data collected from
    the State or other entities should be reported using the following
    terminology:

         Goal – multiyear effort to implement or improve a program
         Objectives – annual effort to advance the implementation or
         improvement of a program
         Milestone – A significant phase in the implementation or
         improvement in the program

    During our review of the Washington Urban Areas Security
    Initiative strategy we noted that Washington has a total of 5 goals
    with 72 objectives. We noted an overall concern with all the
    objectives in regards to what was to be specifically achieved and
    the lack of standards for comparison. Table 1-1 provides
    representative examples where Seattle’s Urban Area strategy
    contained goals and objectives that did not specifically identify
    what was to be achieved or accomplished, and did not provide a
    standard for comparison:




 The State of Washington’s Management of Urban Areas Security
Initiative Grants Awarded During Fiscal Years 2007 through 2009

                            Page 4
    Table 1-1: Representative Examples of Goals and Objectives
    Lacking Accomplishments or Standards for Comparison
    Goals                                 Objectives
    1: Improve the Urban Area’s           1.5: Seattle: Preserve the
    ability to DETER and PREVENT          response capability of the City of
    terrorism by identifying threats,     Seattle’s departments during a
    vulnerabilities, weaknesses, and      critical incident by improving the
    gaps within existing systems and      safety of all responders.
    infrastructure, and by enhancing
    planning, preparation, exercises,
    simulation, equipment needs,
    training, media, public awareness
    and involvement, and involve
    relevant public and private entities.
    2: Improve the Urban Area’s           2.19: Incorporate an intelligence
    ability to PREEMPT terrorism          component into counterterrorism
    through cooperation, intelligence,    (cyber and/or chemical, biological,
    surveillance, detection, early        radiological, nuclear, and
    warning, and command and control. explosive) exercises as appropriate
                                          to each individual exercise.
    3: Improve the Urban Area’s           3.4: Conduct terrorist and
    ability to PROTECT against            chemical, biological, radiological,
    terrorism by defending critical       nuclear and explosive threats and
    infrastructure and providing          vulnerabilities assessments for
    seamless coordination and             critical information technology
    interoperability in any-place         systems and networks that support
    any-time activation.                  critical services each year and as
                                          new cyber alerts are provided.
    4: Improve and enhance the Urban 4.20: On a continual basis identify
    Area’s ability to RESPOND to          public works, other Urban Area
    terrorism incident(s) with seamless jurisdictional employees, and
    coordination and interoperability     volunteer associations who require
    between public agencies and           additional training to support a
    private entities to minimize the      terrorist and chemical, biological,
    impact of a TERRORIST and             radiological, nuclear, and
    chemical, biological, radiological, explosive response and funded as
    nuclear and explosive event upon      resources become available.
    our community through
    collaboration and cooperation on
    planning strategies, policies, and
    funding.
    5: Improve the Urban Area’s           5.7: Ensure that the recovery
    ability to RECOVER from a             phase of a terrorist incident is
    terrorist attack through seamless     exercised as part of the Urban
    coordination, public and private      Area chemical, biological,
    mobilization, mutual aid, and         radiological, nuclear and explosive
    lessons learned.                      training and exercise programs.




 The State of Washington’s Management of Urban Areas Security

Initiative Grants Awarded During Fiscal Years 2007 through 2009


                            Page 5

    Grant applications not linked to the Strategy

    The State did not link grant applications for FY 2007, 2008, and
    2009 to the most recent strategy, prepared in 2005. The State does
    not have a process to link grant applications to the strategy, but
    instead bases its applications on annual rankings prepared by the
    State.

    Washington has established a Tri-County Inter-local Agreement as
    well as an Urban Area Core Group, Executive Group, and Urban
    Area Working Group. These groups oversee activities and
    investments for the urban areas. The Urban Area Core Group is
    comprised of voting members from five partner areas that include
    King County, the City of Seattle, Pierce County, Snohomish
    County, and the City of Bellevue. The Urban Area Core Group
    reviews rankings from the Working Group and makes changes as
    they deem necessary. The Executive Group is made up of one or
    two Directors, Chief Officers, and Senior Staff from each of the
    five partners. The Executive Group is appointed by the County
    Executives for Pierce, King, and Snohomish counties and by the
    Mayors for the cities of Seattle and Bellevue. The Executive
    Group approves and submits the strategy to the Governor for
    approval and signature.

    County and city first responder representatives who focus on
    specific disciplines make up the Urban Area Working Group,
    which acts as a liaison between the Executive Group and the
    subcommittees of the Urban Area Working Group. The grant
    application process begins when subcommittees are formed to
    discuss their particular needs and demonstrate how proposed
    projects support the strategy. Subcommittees prioritize projects
    based on assigned rankings and submit them to the Working Group
    for review. The Working Group prepares an overall ranking for
    the Urban Area and submits it to the Urban Area Core Group,
    which modifies project rankings to reflect the highest priorities of
    the Urban Area. Rankings are then sent through the State approval
    hierarchy with final approval made by the Governor. Once
    approved, the State Administrative Agency submits the grant
    application to the Department of Homeland Security. As a result,
    grant applications were based on annual rankings rather than being
    linked to the Urban Area’s strategy.

    FY 2007 FEMA Program Guidance Section V Part B.2 – Urban
    Area Homeland Security Strategy states that urban areas must
    utilize their Urban Area Homeland Security Strategy, the State’s

 The State of Washington’s Management of Urban Areas Security

Initiative Grants Awarded During Fiscal Years 2007 through 2009


                            Page 6
    Program and Capability Enhancement Plan, and the Goal and
    Target Capabilities List as the basis for requesting funds to support
    investments identified in the Investment Justification. There must
    be a clear correlation between the goals, objectives, and priorities
    identified in the Urban Area Homeland Security Strategy and
    FY 2007 Urban Area Security Initiative program activities.

    The State has not implemented a process to ensure that the Urban
    Area strategy is reviewed and updated periodically to reflect
    current goals, objectives, and priorities. Consequently, the State
    relies on a ranking and project prioritization process that is
    disconnected from the strategy. Funding of projects within the
    Urban Area is not focused on the highest priorities as described by
    the approved strategy, making the strategy irrelevant. Instead, the
    annual rankings have become an ad hoc strategy that is short-
    sighted, focusing only on the current year.

    The State’s failure to link the grant application with the strategy
    hinders the Washington Military Department, Emergency
    Management Division and FEMA’s efforts in determining whether
    goals and objectives are being met and progress is being made.
    Also, the strategy does not reflect two of the eight National
    Priorities as required by the September 2007 DHS State and Urban
    Homeland Security Strategy Guidance on Aligning Strategies with
    the National Preparedness Goal. Because the strategy has not been
    updated to reflect current priorities, it does not address:

         Implement the National Infrastructure Protection Plan
         Strengthen Planning and Citizen Preparedness Capabilities

    The State has not implemented processes to ensure that the Urban
    Area strategy contains measurable and time-limited objectives, or
    is periodically updated. The Urban Area strategy has not been
    updated since 2005 and does not contain the required level of
    detail to develop an adequate basis for measuring progress. As
    such, FEMA’s ability to assess overall program effectiveness and
    impact, and to properly report results to Congress, the Office of
    Management and Budget, and the President is hindered.




 The State of Washington’s Management of Urban Areas Security
Initiative Grants Awarded During Fiscal Years 2007 through 2009

                            Page 7
Recommendations
      We recommend that the Assistant Administrator, Grant Programs
      Directorate, direct the State Administrative Agency to:

      Recommendation #1: Develop procedures to periodically update
      the Urban Area strategy to include goals and objectives that are
      measurable and time-limited.

      Recommendation #2: Link the current grant application to the
      revised Urban Area strategy.

Management Responses and Auditors’ Analysis
      FEMA officials concurred with the intent of recommendation 1
      and concurred with recommendation 2. The officials said that the
      National Preparedness Directorate, the FEMA entity responsible
      for developing guidance regarding the Homeland Security Strategy
      process and preparedness performance measurement systems, is
      revising the guidance and expects to release it by the end of the
      year 2011 for the FY 2012 application cycle. FEMA will require
      the State to formalize a policy and document procedures for
      updating the State strategy in compliance with the revised
      guidelines.

      In regard to recommendation 2, FEMA officials said that the State
      of Washington is currently revising its FY 2005 Seattle Urban
      Areas Strategy, and it should be ready for review the first quarter
      of FY 2012. Once it is adopted and ratified by the State and
      approved by FEMA, all future Urban Areas Security Initiative
      applications must link with the strategy. FEMA requested that
      recommendations 1 and 2 be resolved and open. However,
      because there are no firm target dates for implementing the
      corrective actions, recommendations 1 and 2 will remain
      unresolved and open.

      State of Washington officials agreed with recommendations 1 and
      2. The officials said although not required by current guidance,
      they are working on an updated strategy that will include goals and
      objectives that are measureable and time-limited. The State
      estimated that the strategy update will be completed in April 2012.
      State officials said that they link the strategic objectives in the
      State strategy to their grant application in the federal Grants
      Reporting Tool. However, the State does not base its application


   The State of Washington’s Management of Urban Areas Security

  Initiative Grants Awarded During Fiscal Years 2007 through 2009


                              Page 8
            on the strategy, but rather on annual rankings prepared by the
            State.

            The Assistant Administrator, Grant Programs Directorate, needs to
            outline specific corrective actions with supporting documentation
            for implementation of the recommendations, and a timeline to
            ensure that the State’s implementation of its proposed corrective
            actions proceeds as intended. The recommendations will remain
            open until such time that corrective actions have been
            implemented.

Lack of Assessment Process to Measure Improvement
     The State has not implemented an assessment process to measure
     improvements in preparedness. Each year the State reassesses its
     priorities without consideration of performance improvement and
     attainment of objectives that were established in prior years. The State has
     not fully incorporated the use of the Target Capabilities List established by
     FEMA to assist them in measuring improvements and identifying gaps
     according to FEMA guidance.

     The Homeland Security Grant Program Guidance and Application Kits for
     FYs 2007 through 2009 state that as part of the FY 2007, 2008, and 2009
     Homeland Security Grant Program Investment Justifications, applicants
     will be asked to establish specific capability-based outcomes associated
     with proposed investments. Progress will be measured in accordance with
     the Target Capabilities List, State and Urban Area Homeland Security
     Strategies, and applicable national plans and strategies to provide
     concrete, measurable outcomes and milestones, while preserving the
     necessary flexibility to meet unique State and Urban Area operational
     requirements. Adopting this approach sets the conditions for compliance
     with Homeland Security Presidential Directive 8 National Preparedness,
     and congressionally-directed requirements for annual state preparedness
     reports included in the FY 2007 Department of Homeland Security
     Appropriations Act.

     The State has not fully implemented or documented procedures to ensure
     that they perform an analysis of capabilities and performance with respect
     to achieving goals and objectives. For the Urban Areas Security Initiative
     program, the State recently implemented preliminary procedures for
     measuring improvement, but the procedures were not performed during
     the audited FY 2007 to 2009 time period.

     The lack of procedures for assessing performance prevents the proper
     evaluation of the Urban Area’s accomplishments to ensure that the goals

         The State of Washington’s Management of Urban Areas Security

        Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                    Page 9
and objectives are being achieved, or requested funding is still in line with
the real threats and vulnerabilities of the Urban Area. Without good
performance measurements, DHS may be hindered in properly
determining the program effectiveness and impact, and may report
imprecise results.

Recommendations
       We recommend that the Assistant Administrator, Grant Programs
       Directorate, direct the State Administrative Agency to:

       Recommendation #3: Fully implement procedures to measure
       performance improvements and progress towards goals using the
       Target Capabilities List.

       Recommendation #4: Include performance measurements
       developed during this process in any update to the Urban Area
       Strategy.

Management Responses and Auditors’ Analysis
       FEMA officials concurred with the intent of recommendations 3
       and 4. As stated previously, the National Preparedness
       Directorate, the FEMA entity responsible for developing guidance
       for Homeland Security Strategy processes and preparedness
       performance measurement systems, is revising the guidance and
       expects to release it by the end of the year 2011 for the FY 2012
       application cycle. FEMA will require the State to use the guidance
       to implement procedures to measure performance improvements
       and progress towards goals using the Target Capabilities List, as
       applicable. FEMA will also require the State to include
       performance measurements during the process of updating the
       Urban Area Strategy in compliance with FEMA’s revised
       guidance. FEMA requested that recommendations 3 and 4 be
       resolved and open. However, because there are no firm target
       dates for completion, recommendations 3 and 4 will remain
       unresolved and open.

       State of Washington officials agreed with recommendations 3 and
       4. The officials stated although not required by current guidance,
       they are working on an assessment of capabilities and the results
       and analysis will feed directly into the strategy update that will be
       completed in April 2012.



    The State of Washington’s Management of Urban Areas Security

   Initiative Grants Awarded During Fiscal Years 2007 through 2009


                               Page 10
    The Assistant Administrator, Grant Programs Directorate, needs to
    outline specific corrective actions with supporting documentation
    for implementation of the recommendations, and a timeline to
    ensure that the State’s implementation of its proposed corrective
    actions proceeds as intended. The recommendations will remain
    open until such time that corrective actions have been
    implemented.




 The State of Washington’s Management of Urban Areas Security

Initiative Grants Awarded During Fiscal Years 2007 through 2009


                            Page 11
Appendix A
Purpose, Scope, and Methodology

                   The objective of this audit was to determine whether the State of
                   Washington distributed and spent Urban Areas Security Initiative
                   grant funds strategically, effectively, and in compliance with laws,
                   regulations, and guidance. The goal of this audit is to identify
                   problems and solutions in order to assist FEMA and the State to
                   improve the nation’s ability to prevent and respond to all hazards
                   on a local as well as a statewide level.

                   The scope of this audit included the plans developed by the Urban
                   Area to improve preparedness and all hazards response, the goals
                   set within those plans, the measurement of progress towards the
                   goals, and the assessments of performance improvement that result
                   from this activity. Further, the scope included the assessment of
                   these activities within the context of risk to determine if the State’s
                   plans produced strategic performance improvements related to the
                   highest areas of risk rather than merely producing improvements in
                   a broader sense.

                   Together, the entire Homeland Security Grant Program and its five
                   interrelated grant programs fund a range of preparedness activities,
                   including planning, organization, equipment purchase, training,
                   exercises, and management and administration costs. Because of
                   the interrelationship of these grant programs, all were considered
                   when evaluating the planning cycle and the effectiveness of the
                   overall grant program. However, only Urban Areas Security
                   Initiative funding, and equipment and programs supported by the
                   grant funding, were reviewed for compliance. State Homeland
                   Security Program grants were addressed in the DHS OIG report
                   “The State of Washington’s Management of State Homeland
                   Security Grants Awarded During Fiscal Years 2004 through
                   2006,” OIG-08-98, September 2008.

                   In accordance with the audit guide, auditors chose to visit all eight
                   subgrantees receiving Urban Areas Security Initiative grant funds.
                   We visited nine total sites, including the State Administrative
                   Agency, and eight subgrantees:

                          Washington Military Department, Emergency Management
                          Division (State Administrative Agency)
                          City of Bellevue
                          King County
                          Pierce County
                          Seattle Police Department
                          Snohomish County
                          University of Washington

                The State of Washington’s Management of Urban Areas Security
               Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                          Page 12
Appendix A
Purpose, Scope, and Methodology

                          Washington State Department of Health
                          Washington State Patrol

                   The scope of the audit included the Urban Areas Security Initiative
                   grant awards for FYs 2007, 2008, and 2009 as shown in the
                   following table:


                     Homeland Security Grant Program
                     FYs 2007 through 2009


                     Funded Activity       FY 2007       FY 2008       FY 2009        Total

                     Urban Areas
                     Security Initiative   $10,660,000   $10,340,000    $11,030,900   $32,030,900
                     State Homeland
                     Security Program      $10,030,000   $19,780,000    $18,190,000   $48,000,000
                     Law Enforcement
                     Terrorism                             Not            Not
                                            $7,170,000                                  $7,170,000
                     Prevention                          Applicable     Applicable
                     Program
                     Citizen Corps
                     Program                  $291,665      $295,668       $294,119      $881,452
                     Metropolitan
                     Medical Response         $774,435      $963,663       $963,663     $2,701,761
                     System Program
                    Grand Total         $28,926,100 $31,379,331         $30,478,682   $90,784,113
                   Source: Federal Emergency Management Agency

                   The team reviewed a statistical sample of the Urban Area’s
                   expenditures representing 16% of the dollar value expended for
                   each grant year to determine the sufficiency of internal controls.

                   We conducted this performance audit between October 2010 and
                   May 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.

                   Although this audit included a review of costs claimed, we did not
                   perform a financial audit of those costs. This was a performance
                   audit as defined by Chapter 1 of the Government Auditing

                The State of Washington’s Management of Urban Areas Security
               Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                           Page 13
Appendix A
Purpose, Scope, and Methodology

                   Standards, and included a review and report of program activities
                   with a compliance element.

                   Williams, Adley & Company-DC, LLP was not engaged to and did
                   not perform a financial statement audit, the objective of which
                   would be to express an opinion on specified elements, accounts, or
                   items. Accordingly, Williams, Adley & Company-DC, LLP was
                   neither required to review, nor express an opinion on, the costs
                   claimed for the grant programs included in the scope of the audit.
                   Had Williams, Adley & Company-DC, LLP been required to
                   perform additional procedures, or conducted an audit of the
                   financial statements in accordance with generally accepted
                   auditing standards, other matters might have come to its attention
                   that would have been reported. This report relates only to the
                   programs specified and does not extend to any financial statements
                   of the State of Washington.

                   While the audit was performed and the report prepared under
                   contract, the audit results are being reported by the DHS Office of
                   Inspector General to appropriate Federal Emergency Management
                   Agency and State of Washington officials.




                The State of Washington’s Management of Urban Areas Security

               Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                           Page 14
Appendix B
Management Responses to the Draft Report



                                                                                     U.S. l)('parUncllI of I lu rneland Scrorl,,·
                                                                                     50el C St n..'CI . SW
                                                                                     Wa,hiu!;tuu . 1ll'10472




                                                    OCT 0 5 2011




        MEMOR AN DUM FOR:               Anne L. Richards
                                        Assistont In spector General fo r Audits
                                        Oll1ce o f Inspector General

        FROM:                           D~~a~ ~r
                                        Directo r
                                        Office o f Pol icy and Program Analysis

        SUBJECT:                        Response to Dra B OIG Report, 'I111! Stale (J/Washillg/(J/I's
                                        Mallagemcm oIVrbarl Areas Secl/rity Illitiatives (VAS!) Grall!s
                                        Awarded durillg Fiscal rears 200711lroltgh 2009


        Th.mk you for the oPPOitunity to comment 0 11 the drati report. l1le iiml ings ill the rl!porl will bl!
        used 10 strcngthen the effcdi vcllcss und cfticieney ol' how we execu te and measure our
        programs. We recognize the nced to continue to improve th e process, including addressing the
        recommendatio ns raised in thi s report. Our responses to the recommendat ions are as follows:

        O IG Recomme ndatio n #1: We recommend that the Assistant Administrator, Grant Programs
        Directorate, direct the Sta te Ad ministrati ve Agency to develop procedures to periodicall y upd atc
        the Urban Area strategy to include goal s :1nd objecti ves th:11 are measurable and tim e-lim ited,

        FE:\1 A Rcsponse: r EMA concurs with the intent of this reco mmendation. Speci fi cal1y, the
        Nat ional Preparedness Direc torate (N PD) is the FEMA cntit y rcspo nsib le fo r developing
        guidmlCe regarding the J-lome bnd Sceurity Strategy (I-lSS) process and preparedn ess
        perfo nna nce measurem ent systems . NPD is revising the guidance fo r HSS contcnt. It is
        anticipated that. in preparation lix tht:: FY 201 2 HOlll chllld Security GratH Program (HSG P)
        app lication cycle. this new gu id<l ll ce wil l be released by the end o f lhe year 201 1 for the FY 2012
        HSG P application cycle. FEMA will require the State to fonnalize !l poli cy and document
        proced ures for updati ng the State strategy in compl innce wit h revi sed guidelines developed by
        NPD.




                                                                                     W\\ " , rl' n1:1.:':0'·




                    The State of Washington’s Management of Urban Areas Security

                   Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                       Page 15

Appendix B
Management Responses to the Draft Report




        FEMA will continue to strengthen the language of the guidance, and requests that this
        recommendation be resolved and open pending implementation of the stated corrective action.

        OIG Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
        Directorate. direct the State Administrative Agency to link the current grant application to the
        revised Urban Area strategy.

        FEMA Response: FEMA concurs with this recommendation. The State of Washington's EMD
        is in the process of revising their current FY 2005 Seattle Urban Areas Strategy. and it should be
        ready for review the first quarter ofFY 2012. Once the new Urban Area strategy is adopted and
        ratified by the State and approved by FEMA, aU future UASI applications must link with the
        strategy. FEMA will continue to work towards strengthening the language of the guidance, and
        requests that this recommendation be resolved and open pending implementation of the stated
        corrective 'action.

        OIG Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
        Directorate, direct the State Administrative Agency to fully implement procedures to measure
        perfonnance improvements and progress towards goals using the Target Capabilities List.

        FEMA Response: FEMA concurs with the intent of this recommendation. All 56 states and
        territories have developed a base HSS. This document is the primary mechanism for State,
        Urban Areas and Territorial governments to identify the Homeland Security goals for their
        respective communities. NPD is the FEMA entity responsible for developing guidance on
        Homeland Security strategies and preparedness perfonnance measurement systems. As stated in
        our response to Recommendation 1, it is anticipated that NPD will release new guidance in the
        by the end of the year 2011 for the FY 2012 HSGP application cycle. FEMA will require the
        SAA to use the guidance developed by NPD to implement procedures to measure performance
        improvements and progress towards goals using the Target Capabilities List. as applicable,
        FEMA requests this recommendation be resolved and open pending implementation ofthe stated
        corrective actions ..

        DIG Recommendation #4: We recommend that the Assistant Administrator, Grant Programs
        Directorate, direct the State Administrative Agency to include performance measurements
        developed during this process in any update to the Urban Area Strategy.

        FEl\1A Response: FEMA concurs with the intent of this recommendation. As stated in our
        response to Recommendation 1, it is anticipated that NPD wi11 release new guidance by the end
        of the year 2011 for the FY 2012 HSGP application cycle, FEMA will require the SAA to
        include performance measurements during the process of updating the Urban Area Strategy in
        compliance with revised guidelines developed by NPD. FEMA believes this satisfies the intent
        of the recommendation and requests that this recommendation remain resolved and open,
        pending revision of Urban Area Strategy.

        We thank you for the opportunity to review and update our comments to your recommendations
        contained in your final report. Should you have further questions regarding OUf response, please
        do not hesitate to call FEMA's Chief Audit Liaison, Brad Shetka, at 202-646-1308


                                                         2




                    The State of Washington’s Management of Urban Areas Security

                   Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 16

Appendix B
Management Responses to the Draft Report




                                              STATE OF WASH INGTON

                                   MILITARY DEPARTMENT
                              EMERGENCY MANAGEMENT DIVISION
                                                MS: TA·10 Building 10
                                        Camp Murray, W.5hins'on 9B410·5'11
                                     Phon~: (253) 512·7000 · FAX: (1531 512·7100
        October 14, 2011



        Jocelyn A. Hill
        Williams, Adley and Company. LLP
        1030 151h Street rNV. Suite 350
        Washington. DC 20005

        Dear Ms. Hill:

        Thank you for the opportunity to respond to the Williams, Adley and Company Draft Report: The
        State of Washington's Management of Urban Areas Security Initiative Grants Awarded During
        Fiscal Years 2007 through 2009 - For Official Use Only. Our response com ments are included
        in this letter, along with report text that the comments address. Our understanding is that our
        response comments will be incorporated into the final draft report forwarded to the Office of
        Inspector General, for eventual reporting to Congress and publication on the OI G web site .

        Response Comments
        Report text is shown In italics. Our comments are shown In bolded text .

        The objectives of this audit were to determine if the State of Washington distributed and spent
        Urban Areas Security Initiative grant funds (1) effectively and efficiently and (2) in compliance
        with applicable federal laws and regulations. We were also to address the extent to which grant
        funds enhanced the State of Washington's ability to prevent, prepare for, protect against, and
        respond to natural disasters, acts of terrorism, and other man-made disasters. (p1J) The
        objective of this audit was to determine whether the State of Washington distributed and spent
        Urban Areas Security Initiative grant funds strategically. effectively, and in compliance with laws.
        regulations, and guidance. (p 10J Overall, the State Administrative Agency did an effective and
        efficient job of administering the program requirements, distributing grant funds, and ensuring
        that all available funds were used. The State formed working groups to establish priorities and
        spent grant funds in accordance with such priorities and applicable federa/laws and regulations.
        {p2]

        The State of Washington State Administrative Agency (SM) appreciates this
        determination of compliance, effectiveness, and efficiency in its management of Federal
        Fiscal Year 2007, 2008, and 2009 Urban Area Security Initiative (UASI) program awards
        for the Seattle Urban Area .

        .. .we identified two areas for improvement: the Urban Area strategy and the assessment
        process to measure improvement. {p1] We recommend that the Assistant Administrator, Grant
        Programs Directorate, direct the State Administrative Agency to: Recommendation #1 : Develop
        procedures to periodically update the Urban Area strategy to include goals and objectives that



                                                    -1-




                   The State of Washington’s Management of Urban Areas Security

                  Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                     Page 17

Appendix B
Management Responses to the Draft Report




        Jocelyn A. Hill
        October 14, 2011
        Page 2

        are measurable and time-limited. Recommendation #2: Unk the cUffent grant application to the
        revised Urban Area strategy. [pBl Recommendation #3: Fully impleme nt procedures to
        measure performance improvements and progress toward goals using the Target Capabilities
        U st. Recommendation #4~ Include performance measurements developed during this process in
        any update to the Urban Area Strategy. {p9}

        The State of Washington State Administrative Agency (8AA) recognizes that these
        recommendations are being made to the FEMA Grants Program Directorate, and if
        implemented, will apply to all recipients of UASI grant funds. In 2007, the Seattle Urban
        Area Working Group independently established the need to perfonn a capabilities
        assessment process, and began this project with FFY2008 UASI funds. This project will
        be completed by the end of this year. In 2008. the Urban Area Working Group
        Independently established a need to update Its strategy and began this project using
        FFY2009 funds. The Capabilrties Assessment Project results and analysis feed directly
        into the Strategy Update Process. The Strategy Update Project will complete In April
        2012, and the updated strategic goals and objectives will be loaded into the federal
        Grants Reporting Tool for linking all potentially UASI funded future Investments. Goals
        and objectives will be measurable and time-limited. In short, though not required by
        guidance, the Seattle Urban Area Working Group has demonstrated that it is in full
        agreement with the recommendations to FEMA outlined in the Williams Adley report, and
        Is already Implementing those recommendations.

        The State Administrative Agency did not link grant applications for FY 2007, 2008, and 2009 to
        the most recent strategy, prepared in 2005. The State does not have a process to link
        applications to the strategy, but instead bases its applications on annual rankings prepared by
        the State. {p6}

        This statement is incorrect. Homeland Security Grant Program guidance requires the
        UASI strategy to be loaded Into the federal Grants Reporting Tool (GRn. where each
        year, both the Investment Justifications and UASI-funded local and state projects must
        be tied to UASI strategic objectives. The SAA loaded the 2005 UASI Strategy Into the
        GRT. The SAA and the Seattle UASI ensured the 2007, 2008, and 2009 grant applications
        were linked to the 2005 strategy. Examination of Washington State's UASI grant
        applications in GRT will demonstrate the linkage of Investment to strategy. OHS will not
        approve a grant application without it. In addrtion to this guidance-required linking each
        year, the State has also used every tool and process at its disposal to maintain relevant
        homeland security strategies and to ensure those strategies guide UASI-funded projects.

        The State Administrative Agency has not implemented a process to ensure that the Urban Area
        strategy is reviewed and updated periodicalfy to reflect current goals, objectives, and priorities.
        [P7)

        Federal UASI grant guidance stipulates who the local members are in each Urban Area,
        and requires those members to form a Working Group and Charter to jointly determine
        how UASI program funds should be prioritized. Washington State closely follows grant
        guidance and the SAA is an active partner in the Seattle UASI governance. In many If not
        most other Urban Areas , states do not enter into the UASI governance process but
        simply pass through the funds. The State of Washington, however, enjoys a somewhat
        unique collaborative arrangement whereby the State is a facilitating partner with the




                   The State of Washington’s Management of Urban Areas Security

                  Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 18

Appendix B
Management Responses to the Draft Report




        Jocelyn A. Hill
        October 14. 2011
        Page 3

        other UASI members, and the State and locals work together to agree on projects in a
        fully transparent process. The State and locals together comprise the Urban Area
        Working Group, which has fully matured In Its processes over the ten years of UASI
        funding, which have been demonstrated in its detennination to measure its capabilities
        improvements and to update its strategies. This is evidenced by the UASl's review of the
        2005 strategy, goals, objectives and priorities and the determination in 2008 that the
        strategy needed to be updated. Beginning with the fiscal year 2011 grant program, states
        are now required to update their strategies every two years. The Seattle UASI will
        continue to comply with this grant guidance.

        The Urban Area Working Group's mission is to meet the compliance, effectiveness and
        efficiency objectives noted at the beginning of this letter. The SM is pleased to receive
        the determination that tho Urban Area Working Group has met those objectives.

        Again , Ms. Hill, we thank you for this opportunity to comment on the Williams Adley report. We
        also wish to note the outstanding friendliness and professionalism of the Williams Adley staff
        that perfonned this audit.

        Sincerely.



       ~~~
        Director

        cc: Robert Ezelle, Unit Manager
            Jennifer Schaal. Homeland Security Section Manager
            Russell Sonmore, Subrecipient Monitoring Manager
            Program Files




                      The State of Washington’s Management of Urban Areas Security

                     Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 19

Appendix C
Homeland Security Grant Program Background

                  The Homeland Security Grant Program provides federal funding to
                  help state and local agencies enhance their capabilities to prevent,
                  protect against, respond to, and recover from terrorist attacks,
                  major disasters, and other emergencies. The Homeland Security
                  Grant Program encompasses several interrelated federal grant
                  programs that together fund a range of preparedness activities,
                  including planning, organization, equipment purchase, training,
                  and exercises, as well as management and administration costs.
                  Programs include:

                       State Homeland Security Program provides financial
                       assistance directly to each of the states and territories to
                       prevent, respond to, and recover from acts of terrorism and
                       other catastrophic events. The program supports the
                       implementation of the State Homeland Security Strategy to
                       address the identified planning, equipment, training, and
                       exercise needs.

                       Urban Areas Security Initiative provides financial assistance
                       to address the unique planning, equipment, training, and
                       exercise needs of high risk urban areas, and to assist in building
                       an enhanced and sustainable capacity to prevent, respond to,
                       and recover from threats or acts of terrorism and other
                       disasters. Allowable costs for the urban areas are consistent
                       with the State Homeland Security Program. Funding is
                       expended based on the Urban Area Homeland Security
                       Strategies.

                  In addition, the Homeland Security Grant Program includes other
                  interrelated grant programs with similar purposes. Depending on
                  the fiscal year these include:

                       Metropolitan Medical Response System
                       Citizen Corps Program
                       Law Enforcement Terrorism Prevention Program
                       (through FY 2007)




               The State of Washington’s Management of Urban Areas Security
              Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                         Page 20
Appendix D
Washington Military Department Emergency Management Division Organization


Organization as of September 2010




           Source: Washington Military Department, Emergency Management Division




                  The State of Washington’s Management of Urban Areas Security

                 Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                             Page 21

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                The State of Washington’s Management of Urban Areas Security

               Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                           Page 22

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
